     Department of Homeland Security





       FEMA Region VII Direct Administrative Costs for 

                Harrison County, Missouri 





DD-12-09                                           April 2012

                                                                Office o/Inspec/or General

                                                                u.s. Department of Homeland Security
                                                                Washington, DC 20528




                                                  a
                                                  ...
                                                  ~         ~
                                                              Homeland
                                                                   .
                                                   .,,,.,.,,, Security
                                                                 APfi 1 1 2012

                                              'nistrator, Region VII
                                        J?fiSJ'j~;!' Mana     ent Agency

FROM:
                                 As stant Inspector G neral
                                 Office of Emergency Management Oversight

SUBJECT:                         FEMA Region Vll Direct Administrative Costs for
                                 Harrison County, Missouri
                                 FEMA Disaster Number 1708-DR-MO
                                 Audit Report Number DD-12-09

We are currently auditing Federal Emergency Management Agency (FEMA) public
assistance funds awarded to a subgrantee in the State of Louisiana.! We arc conducting
this pedonnance audit pursuant to the Inspector General Act C?l1978, as amended, and
according to generally accepted government auditing standards.

As part of our audit, we retrieved data from FEMA's Enterprise Data Warehouse to
identify direct administrative costs FEMA approved for subgrantees under disasters
declared between August 29, 2005, and November 12,2007 (the effective date ofFEMA's
implementation of amended management cost regulations). We identified one project
that FEMA Region VTI approved that included $40,800 of direct administrative costs for
Harrison County, Missouri (Public Assistance Identification Number 081- 99081-00).

We discussed the direct administrative costs for Project 656 with FEMA Region VTI
officials and requested that they determine specifically what activities the administrative
costs covered. The officials responded that the costs were charged to the project in error
and that all administrative costs are covered by the sliding scale administrative
allowance. According to 44 CFR 207.9(b)(2) and (c)(2), for disasters declared before
November 13,2007, direct administrative costs are covered by a sliding scale and no
indirect costs are eligible, respectively. Therefore, the $40,800 of direct administrative



I   Cameron Parish, Louisiana.

                                              2
costs charged to Project 656 is ineligible because it duplicates costs already covered by
the administrative allowance. FEMA Region VII officials agreed with this finding.


                                RECOMMENDATION

We recommend the Regional Administrator, FEMA Region VII:

       Recommendation #1: Disallow $40,800 of ineligible direct administrative costs.


        DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed our finding and recommendation with FEMA officials and have included
their comments in this report as appropriate. We also provided a draft report in advance
to these officials and discussed it at an exit conference held on March 23, 2012. FEMA
officials agreed with our finding and recommendation.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for the recommendation. Also, please include responsible
parties and any other supporting documentation necessary to inform us about the current
status of the recommendation. Until your response is received and evaluated, the
recommendation will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post the
report on our website for public dissemination. Significant contributors to this report
were Tonda Hadley, Paige Hamrick, and Tai Cheung.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Tonda Hadley at (214) 436-5200.


cc:    	Administrator, FEMA
       Director, Risk Management and Compliance, FEMA Office of Chief Financial
       Officer
       Audit Liaison, FEMA Region VII
       Audit Liaison, FEMA (Job Code G-12-20)
       Audit Liaison, DHS




                                             2

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
